NO.

IN THE SUPREME COURT OF THE UNITED STATES

 

JAMES COLLEY, JR. —- PETITIONER
VS
STATE OF FLORIDA — RESPONDENT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis in
the Circuit Court, Seventh Judicial Circuit, in and for St. Johns County.

Petitioner’s Application for Criminal Indigent Status and appointment of
Public Defender and Order of Insolvency for Appeal Purposes are attached hereto.

Respectfully submitted,

MATTHEW J. METZ
PUBLIC DEFENDER.
SEVENTH JUDICIAL CIRCUIT

/s/Nancy Ryan
NANCY RYAN
ASSISTANT PUBLIC DEFENDER
FLORIDA BAR NO, 0765910
444 Seabreeze Blvd. Suite 210
Daytona Beach, FL 32118
(386) 254-3758

ryan.nancy@pd7.org,
JAMES IERRY UULLEY JK vs. STATE OF FLORIDA.
UT. CASE NO: 15001248CFMA
HY. CASE NO: SC18-2018

IN THE CIRCUIT/COUNTY COURT OF THE 7* JUDICIAL CIRCUIT
IN AND FOR ST. JOHN'S COUNTY, FLORIDA

stare oF one case no Lee LA IBC
AEPUCATIONE Vr

iam SEEKING THE APPOINTMENT OF THE PUBLIC OEFENDER

HAVE A PRIVATE ATTORNEY OF AM SELF-AEPRESENTED AND SEEK
DETERMINATION OF INDIGENCE STATUS FOR COSTS:

‘Notice to Applicant: The provision of a public datendericour apooiated
and costaidue pracoss serices are nol ree. A odgment and Ken may be imposed
against al ea or persona! sropory you ow to pay Tor legal and other services
‘ravided on your bahalt or on behalf the person for wham: you are making is
pplication. Theres @ $50.00 lee for each application fled. Whe apolcation foo is
notpaid othe Crk of tne Court witin 7 days, wil be added ta any costs that
‘may be assessed against you at tne conchsicn ofthis case, I you ae a
pareniguasdian aking this etfidavit on beta ot 2 minor cr tix dependent ad,
{he information contained inthis application must include your income and assets.

4, thave 2%. dapanans. (Dn incude chien ol ingame d kde &
voting posse ors}

2. Ihave atria hone income of. v= Fd | cy | ]Rbweely [seme
mmantiy [Jmactiy | Jyeaty

(aka bore ncaa equal sala, wopes, bonuses, commissions, alowances, overtime ips and
‘nar payments, snes dons eed by Sow and alba ex orcad supp pets)

tha eter income paid [weekly | |De-weeky [ ]semimontiy [ monty { yea:

  

 

 
 
   
   

(Sen eed fk ore uh isi lcm lias
Socal Sect bee... ‘ess Ne
Vetwans bereft aa Ye fis
nenpoynetcongesaic, Yee No
Stata ae eet a oui Ye Yo
ion BES ono mney OB to
Woes corpnnaton. ~ No
Renal acon... io
Reirwrepenins. e
fe
Yo
Yo
Une ar anes: (ost fine a ce pe ae
Ne
Ne
Ne
: Yo
orscates of epi or mney rant acouts de
“aya Rew elie ecu homeo. es

 

“uty in Motor vehicle Boat. cum WH Oe
Other angitle prpaty 7 eee ~ Yes$_ 27. No
“ockde ape olan iwestin ich popely

4. thave a etl amount of Tats and debe tn tha aco

6, Smead: (Cla Yes" o¢"M}

  

 

1 Maen rnd on tla ncn)

Postad by: { JSoH [JFamiy [ }Obar
‘A person whe knowingly provides false information to the cletk or the court in
secking a determination of indigent status under 5. 27.52 FS. commis a
misdemeanor of the frst degree, punishable as provided in s. 775.082, FS. or 5,
775.083, F.S. | alteat that the informaien ? have provides on this Application
is true and accurate to the best of my knowledge.

signed is & dey +SiplemecaWl&
waif tte — tebe
aed Te

Diners Uceisa oF Naber Bint Flltegl None

[ican | Siety

 

 

   
 

‘Bhone Raber ees

 

ma Gy Sate

NOTICE: tf the applicant is determined ty the cist tobe Not fneigent, you may
‘seek judicial review at your naxt scheduled court appearance,

 

GLEBK'S DETERMINATION
[Based on the information in shis Application, Fhave detecnined the applicant ta
indigent {| Not lndigent pureuan! to FS. 27.52,

34 The Publi Detendar is hereby appointed to the case fisted above unt reieved
by the Court. Appication fea of $50 is assassed pursuant mo FS, 27.55( Kb).

oie is Tay Seg 205. cleat creat cout

‘This form was completed with the assistance

ai roo

ISo1 246CF

Filed for record 09/09/2015 11:25 AM Cterk of Court St. Johns County, FL

n

 

i

 
JAMES TERRY COLLEY JR vs. STATE OF FLORIDA
LT. CASE NO: 15001248CFMA
HT. CASE NO: SC18-2014

IN THE CIRCUIT COURT OF THE SEVENTH CIRCUIT
IN AND FOR ST. JOHNS COUNTY, FLORIDA

STATE OF FLORIDA CASE NO: 15-1248CF

ve

JAMES TERRY COLLEY, JR.,
Defendant.

RDER APP' TING P JIC DEFENDER FOR
PURPOSE OF APPEAL AND ADJUDGING DEFENDANT INSOLVENT.

 

IT APPEARING to the Court that the above-named Defendant has expressed a desire to
appeal in the above cause, and

It further appearing to the Court that the said Defendant is an insolvent person and unable
to pay costs in this cause, it is therefore, upon consideration thereof

ORDERED AND ADJUDGED by the Court as follows:

1. That said Defendant is hereby adjudged to be an indigent person.

2, That the Office of the Public Defender be, and is hereby appointed to represent said
Defendant in effecting his appeal in said cause.

3. That the costs of these proceedings, including recard-on-appeal, filing fee, transcripts
and other costs of such appeal shall be borne by the State of Florida.

DONE AND ORDERED in chambers, in St. Johns County, Florida, on 12 day of

December, 2018.

CIRCUIT JUDGE

ce:
Office of the State Attorney (eservicestiohnsi@sao7.org)
Garry Wood, Esq. (garrywood201 1@hotmail.com)
Office of the Public Defender

3604

 
